                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM




          We received an allegation fiom the complainant1that a published pape? contained information taken
          fiom the complainant's NSF proposal.3 Because one of the authors of the paper had reviewed the
          NSF proposal, we considered this individual the subject.
          A comparison of the text in the paper with the NSF proposal showed no verbatim copying. A
          comparison of the information discussed in the paper and the NSF proposal revealed that the alleged
          stolen information was very general in nature, discussing the fbture use of data collected with these
          types of sldies. Further, the subject as well as the other authors of the paper had been working in
          the same research area as presented in the proposal for many years.+
          Given the general nature of the discussion in the paper combined with the common area of research
          for many years between the authors of the paper and the complainant, we determined that there was
          no credible evidence that the subject utilized any material from the complainant's proposal. This case
          is closed and no further action will be taken.




NSF OIG Form 2 (1 1/02)
